No. 20-880

 

In THE
Supreme Court of the United States

TRUSTEES OF THE UNITED MINE WORKERS OF AMERICA
COMBINED BENEFIT FUND AND TRUSTEES OF THE UNITED
MINE WORKERS OF AMERICA 1992 BENEFIT PLAN,

Petitioners,
ve

WESTMORELAND COAL CO., ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Fifth Circuit

REPLY BRIEF

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,870 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 3, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
